No. __________

IN THE

SUPREME COURT OF THE UNITED STATES

In re TODD BRITTON-HARR,
Petitioner.

APPENDIX TO
PETITION FOR AN EXTRAORDINARY
WRIT OF HABEAS CORPUS

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

TABLE OF CONTENTS
Document
1.

Page

October 25, 2019, order of the Eleventh
Circuit Court of Appeals. . . . . . . . . . A-3

A-2

Case: 19-13950

Date Filed: 10/25/2019 Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13950-A
IN RE: TODD BRITTON-HARR,
Peti tioner.
Application for Leave to File a Second or Successive
Motion to Vacate, Set Aside,
or Correct Sentence, 28 U.S.C. § 2255(h)
Before: WILSON, MARTIN and ROSENBAUM,
Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. §§ 2255(h) and 2244(b)(3)(A),
Todd Britton-Harr has filed an application seeking an
order authorizing the district court to consider a second
or successive motion to vacate, set aside, or correct his
federal sentence, 28 U.S.C. § 2255. Such authorization

A-3

may be granted only if this Court certifies that the
second or successive motion contains a claim involving:
(1) newly discovered evidence that, if
proven and viewed in light of the
evidence as a whole, would be sufficient
to establish by clear and convincing
evidence that no reasonable factfinder
would have found the movant guilty of
the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review
by

the

Supreme

Court,

that

was

previously unavailable.
28 U.S.C. § 2255(h). “The court of appeals may
authorize the filing of a second or successive
application only if it determines that the application
makes a prima facie showing that the

A-4

Case: 19-13950

application

Date Filed: 10/25/2019 Page: 2 of 4

satisfies

the

requirements

of

this

subsection.” Id. § 2244(b)(3)(C); see also Jordan v.
Sec’y, Dep’t of Corrs., 485 F.3d 1351, 1357-58 (11th Cir.
2007) (explaining that this Court’s determination that
an applicant has made a prima facie showing that the
statutory criteria have been met is simply a threshold
determination).
In March 2018, Britton-Harr filed an application
to file a second or successive § 2255 motion, seeking to
raise one claim based on newly discovered evidence. He
alleged the following. The government had presented
evidence at his criminal trial that he, acting as the real
estate agent and power of attorney for his stepmother,
Karyn J. Britton (“Karyn”), made a false statement on
Karyn’s loan application for a condominium unit.

A-5

When he was released from prison in February 2017,
he began investigating his case and contacted Gary
Owens, whose signature appeared on the loan
application that the government presented at trial. He
showed Owens the application, and Owens stated that
the signature on the loan application was not his and
had been forged.
Britton-Harr argued that Owens’s statement
that the loan application had been forged was newly
discovered evidence, because the government had
relied on a false document to obtain his conviction. We
denied his application, finding that he had not
explained how the forged loan application would
demonstrate his factual innocence of making a false
statement, as he did not allege that the entire loan
application was forged or that his signature on behalf
of Karyn was forged.

A-6

In

his

instant

application,

Britton-Harr

indicates that he wishes to raise one claim in a second
or successive § 2255 motion. He alleges the same facts
that he alleged in his prior application. He states that
he presumes that his prior application was denied
because Owens had not signed an affidavit swearing
that the signature on Karyn’s application was not his.
He states
2

case: 19-13950

Date Filed: 10/25/2019 Page: 3 of 4

that Owens has now signed such an affidavit. He
argues that, in light of Owens’s affidavit, no reasonable
factfinder would have found him guilty because the
government presented evidence that Owens had signed
the application.
Because we are bound by circuit precedent, we
A-7

must dismiss a claim that has been presented in a
prior application to file a second or successive § 2255
motion. See In re Baptiste, 828 F.3d 1337, 1339 (11th
Cir. 2016). We believe Baptiste, however, has no basis
in the text of the habeas statute. First:
Baptiste was construing 28 U.S.C. §
2244(b)(1),

which

says

any

“claim

presented in a second or successive
habeas corpus application under section
2254 that was presented in a prior
application shall be dismissed.” Of course,
[] § 2255 motions . . . are filed by federal
prisoners [and] § 2255 motions are
certainly not brought “under section
2254,” which governs petitions filed by
state prisoners. But the Baptiste panel
ruled that even though § 2244(b)(1) does

A-8

not mention § 2255 motions, it applies to
them anyway, since “it would be odd [] if
Congress had intended to allow federal
prisoners”

to

do

something

state

prisoners can’t do.
In re Clayton, 829 F.3d 1254, 1266 (11th Cir. 2016)
(Martin, J., concurring).
Beyond that,
Baptiste is inconsistent with the statute
in a second way. The text of the habeas
statute shows that it requires courts to
dismiss only claims that were already
presented in an actual § 2255 motion, as
opposed to a mere request for certification
of a successive § 2255 motion. Both §
2244 and § 2254 distinguish between
“applications” (which are the § 2254

A-9

petitions and § 2255 motions filed in
district courts) and “motions” (which are
the earlier request for certification filed
in a court of appeals). Baptiste assumes
that “motion” and “application” mean the
same thing, even though Congress
carefully distinguished the two. When
Congress uses different words in this
way, courts must presume those words
mean different things.
In re Anderson, 829 F.3d 1290, 1296 (11th Cir. 2016)
(Martin, J., dissenting).
3

Case: 19-13950 Date Filed: 10/25/2019 Page: 4 of 4

Baptiste’s problems do not end there. See In re
Jones, 830 F.3d 1295, 1297 (11th Cir. 2016)
A-10

(Rosenbaum and Jill Pryor, J.J., concurring) (raising
concerns about Baptiste’s policy implications and its
interpretation of the law-of-the-case doctrine).
For all these reasons, we are concerned that
Baptiste is blocking relief to prisoners who ask us to
take a second look at their case after we got it wrong
the first time. Nevertheless Baptiste is binding
precedent in this circuit, so we must conclude that
Britton-Harr will not be allowed to present his case to
a district court for an examination of whether his
sentence is legal.
Bound by Baptiste, we lack jurisdiction to
consider the merits of Britton-Harr’s claim, because it
is the same claim that was raised and denied in his
March 2018 application to file a second or successive §
2255 motion. See Baptiste, 828 F.3d at 1339. A claim is
“the same” where the basic gravamen of the argument

A-11

is the same, even where new supporting evidence or
legal arguments are added. Id. We lack jurisdiction to
consider the merits of any repetitious claim. In re
Bradford, 830 F.3d 1273, 1277-79 (11th Cir. 2016).
The gravamen of both of Britton-Harr’s claims
are the same, as they both argue that the apparent
false signature on Karyn’s loan application is newly
discovered evidence under § 2255(h). See id. Thus, we
lack jurisdiction to consider the merits of BrittonHarr’s present claim, despite the addition of Owens’s
affidavit to the instant application. See id.; Bradford,
830 F.3d at 1277-79.
Accordingly, because we lack jurisdiction to
consider the merits of the sole claim that Britton-Harr
raises, his application for leave to file a second or
successive motion is hereby DISMISSED.
4

A-12

